     CENTRAL REGIONAL OFFICE
            Limited Audit of Financial and Administrative Controls


                                   INTRODUCTION
The Office of Inspector General conducted a limited audit of the financial and
administrative controls of the Central Regional Office (CRO). The audit procedures were
limited to interviewing CRO staff, reviewing supporting documentation, and conducting
limited tests of transactions. The purpose of the audit was to provide the Commission
with negative assurance that the controls were adequate, implemented economically
                                                                             1
and efficiently, and in compliance with Commission policies and procedures. The audit
was performed in accordance with generally accepted government auditing standards
from November to December 2000.



                                    BACKGROUND
The Central Regional Office (CRO), assisted by the Salt Lake and Ft. Worth District
offices, is responsible for administering Commission programs, subject to Commission
oversight, in the states of Arkansas, Colorado, Kansas, Nebraska, New Mexico, North
Dakota, Oklahoma, South Dakota, Texas, Utah and Wyoming. In carrying out its
responsibilities, it exercises a broad range of financial and administrative functions,
including maintaining time and attendance records; procuring supplies and services;
arranging for staff travel; maintaining an inventory of property; and recording budgeted
and actual expenditures of the office.



                                   AUDIT RESULTS
During the limited audit described above, no material weaknesses in the CRO’s financial
and administrative controls came to our attention.
We informally discussed a number of non-material findings and recommendations with
CRO management. CRO generally concurred with the findings and agreed to implement
the recommendations.




1
    Negative assurance means that no material internal control weaknesses came to our
    attention during our limited audit.


         AU D I T R E P O R T N O . 3 2 8                            J AN U AR Y 1 7 , 2 0 0 1
